September 20, 1999

PATRICIA M. GIBERT
VICE PRESIDENT, RETAIL

JOHN H. WARD
VICE PRESIDENT, FINANCE AND CONTROLLER

SUBJECT:	 Audit Report - Point of Service ONE
          (Audit Report Number DA-AR-99-002)

This report represents the results of our audit of the Point of Service ONE system. This
report is the first in a series of reports we plan to issue. We will continue monitoring the
Point of Service ONE system, including all remaining deployment stages.

While management has made significant progress in deploying the Point of Service
ONE system, we found ongoing hardware and software problems contributed to
increases in accounting adjustments and window clerk work hours. As a result, all of
the benefits of the Point of Service ONE system envisioned by management were not
being achieved.

Management generally agreed with our findings and recommendations. Management's
comments and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact              ,
Director, Developmental, at             , or myself at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment

cc: 	 M. Richard Porras
      Allen R. Kane
      David G. Hunter
      Alan B. Kiel
      John R. Gunnels
Point of Service ONE                                         DA-AR-99-002



                                 TABLE OF CONTENTS

Part I
Executive Summary
                                                i

Part II
Introduction
    Background                                                   1
     Objective, Scope, and Methodology                           2


Audit Findings 

     Point of Service ONE                                        3

          System Deployment                                      3

          Testing and Certification of Software                  4

          Hardware and Software Releases                         5

          Vendor Help Desk Fixes                                 8

          Accounting Adjustments                                 9

          Work Hours                                             11 

          New Business Process                                   13 

    Recommendations                                              15 

    Management’s Comments                                        15 

    Overall Evaluation of Management’s Comments                  19 



Appendices
     Appendix A – Test Structure Process For New Software        20 

     Appendix B – Management’s Comment                           22 





                                    Restricted Information
Point of Service ONE	                                                       DA-AR-99-002



                             EXECUTIVE SUMMARY

Introduction 	          In June 1996 the United States Postal Service (USPS)
                        Board of Governors approved the deployment of the Point
                        of Service ONE system, Stage 1. This system will replace
                        the outdated integrated retail terminals at the retail windows
                        of the post offices. We conducted an audit to determine if
                        project planning and system development were effective
                        and to evaluate whether the deployed Point of Service ONE
                        system is achieving the desired results and benefits as
                        outlined in the approved Decision Analysis Report.

Results in Brief	       Since the program was initiated in June 1996, the Point of
                        Service ONE program office made extensive progress in
                        developing and implementing the Point of Service ONE
                        system. While deployment has not been without problems,
                        management took commendable initiative to objectively
                        identify risks by contracting with a consultant to review the
                        program. Officials also assigned the defined risks and
                        supporting observations to project team members for
                        additional definition and mitigation. As a result, more than
                        65 percent of the identified risks had been mitigated as of
                        April 1999.

                        Despite management's actions, however, we found the
                        development and deployment of the system was not fully
                        achieving the desired results and benefits as outlined in the
                        Decision Analysis Report approved by the USPS Board of
                        Governors. Specifically, the number of days allocated for
                        testing the Point of Service ONE software were significantly
                        reduced, thereby failing to prevent additional system
                        problems, such as failed Standard Field Accounting System
                        transmissions and system locks. To illustrate:

                        •	 software and hardware problems persist despite several
                           updated software releases designed to correct the
                           problems;

                        •	 vendors were modifying accountability and retail
                           transaction data to correct accounting errors at Point of
                           Service ONE sites without prior approval by the
                           appropriate USPS personnel;




                                           i
                                 Restricted Information
Point of Service ONE                                                      DA-AR-99-002



                       •	 the number and dollar value of accounting adjustments
                          have risen by 83 percent and 500 percent, respectively
                          in the three accounting periods after implementation as
                          compared to fiscal year (FY) 1998;

                       •	 the work hours of window clerks and accounting staff in
                          Point of Service ONE sites increased by 2 percent and
                          3.8 percent, respectively in the three accounting periods
                          after implementation as compared to FY 1998; and

                       •	 the Point of Service ONE new business processes were
                          not sufficiently mature to fully provide customer
                          satisfaction and fully support retail operations.

                       We briefed the Capital Investment Committee and the
                       Capital Projects Committee on our interim assessment of
                       the Point of Service ONE system in April 1999. This report
                       reflects that assessment and also contains additional
                       analyses of the Point of ONE system.

                       Overall, we believe the Point of Service ONE project is
                       needed to keep USPS competitive and provide necessary
                       information for management. However, we believe
                       deployment of the Point of Service ONE system caused
                       additional costs to USPS and did not fully meet desired
                       results and benefits.

Summary of 	           We provided the Vice President, Retail, and the Vice
Recommendations 	      President, Finance and Controller, six recommendations
                       regarding monitoring and controlling Point of Service ONE
                       activities to ensure accountability and to improve system
                       quality and performance.

Summary of             Management agreed with our recommendations and has
Management’s           either taken or initiated the necessary corrective actions.
Comments               Management’s comments are summarized in the body of
                       the report and appear verbatim at Appendix A.

Evaluation of          Management's actions taken or planned are responsive to 

Management’s           the issues raised in this report. 

Comments 





                                          ii
                                Restricted Information
Point of Service ONE	                                                       DA-AR-99-002



                                  INTRODUCTION

Background 	            Point of Service ONE is the new USPS retail system
                        designed to replace over 60,000 aging and outdated
                        integrated retail terminals and cash registers used by USPS
                        window clerks. This new retail system is expected to
                        improve customer service and help collect important sales
                        and merchandising information.

                        In June 1996 The Board of Governors approved
                        $275 million for the deployment of Point of Service ONE
                        Stage 1. Due to significant changes in capital requirements,
                        the Board approved additional funding of $53.7 million in
                        May 1998, bringing the total investment for the first phase to
                        $328.7 million.

                        To ensure development of the best system and stimulate
                        competition, the USPS awarded contracts to develop Point
                        of Service ONE to two vendors. In Stage 1, these two
                        companies are scheduled to develop and install Point of
                        Service ONE at 4,124 postal locations. In the proposed
                        Stage 2, additional functionality will be added to this system
                        as deployment continues to other locations. Stage 3 will be
                        the final full deployment that will reach approximately
                        20,000 postal locations.

                        Point of Service ONE is a component system of the USPS
                        Associate Office Infrastructure - a project, designed to put
                        local area networks and computer hardware in field offices.
                        This infrastructure will enable USPS to update and process
                        information pertaining to Point of Service ONE retail
                        transactions. USPS officials have indicated the deployment
                        of Point of Service ONE throughout the network will allow
                        USPS to remain competitive in the retail market by
                        providing:

                           •	 accurate service;
                           •	 state-of-the-art equipment;
                           •	 accurate, complete, and consistent
                              information; and
                           •	 full range of marketing reports.




                                            1
                                 Restricted Information
Point of Service ONE                                                       DA-AR-99-002



Objectives, Scope,     The objectives of our audit were to:
and Methodology
                         (1) determine whether project planning, development,
                             and testing were effective, and

                         (2) determine if the deployed Point of Service ONE
                             system provides accurate and reliable data and is
                             achieving desired results as outlined in the Decision
                             Analysis Report.

                       In completing the audit, we reviewed numerous documents
                       and reports relating to Point of Service ONE. We extracted
                       data from USPS systems to perform analytical procedures.
                       We interviewed USPS officials and contractors at
                       Headquarters and in field offices. Also, we attended project
                       meetings, teleconferences, and training courses on Point of
                       Service ONE.

                       The audit was conducted from January through July 1999 in
                       accordance with generally accepted government auditing
                       standards. We reviewed internal controls related to the
                       Point of Service ONE system to the extent we considered
                       necessary under the circumstances.

                       This is the first in a series of reports we plan to issue. We
                       will continue monitoring the Point of Service ONE system,
                       including all remaining deployment stages.




                                           2
                                Restricted Information
Point of Service ONE	                                                                                     DA-AR-99-002



                                                  AUDIT RESULTS

Point of Service ONE 	 The Point of Service ONE system was deployed with
                       numerous problems affecting the quality, reliability, and
                       integrity of the Point of Service ONE data. Program
                       management officials believed the level of risk was
                       manageable and deployed a system that still had critical,
                       functional deficiencies, which were found during the First
                       Article Test.1 Subsequently, the number of days allocated
                       for software testing were significantly reduced, causing
                       additional system problems. As a result:

                                      (1) hardware and software problems still existed despite
                                          several updated software releases designed to correct
                                          the problems;

                                      (2) vendors were modifying the data to correct accounting
                                          errors at Point of Service ONE sites without prior
                                          approval by the appropriate USPS personnel;

                                      (3) the number and dollar value of accounting adjustments
                                          rose by 83 percent and 500 percent, respectively;

                                      (4) the work hours of window clerks and accounting staff
                                          increased by 2 percent and 3.8 percent, respectively;
                                          and

                                      (5) the Point of Service ONE new business processes were
                                          not sufficiently mature to fully provide customer
                                          satisfaction and fully support retail operations.

System Deployment	                    To ensure development of the best system and stimulate
                                      competition, the USPS awarded contracts to two vendors
                                      for the development and deployment of Point of Service
                                      ONE. In 1996 research and development was initiated to
                                      design this system. During this phase, vendors conducted
                                      the Developer Integrated Testing and System Integrated
                                      Testing. Also during this phase, USPS conducted a First
                                      Article Test. After this test, production software was
                                      released for deployment in September 1998. As of April
                                      1999 Point of Service ONE was deployed at approximately
                                      1,200 sites.


1
    First Article Test is the contractual evaluation of the vendor's solution by USPS prior to release.



                                                             3
                                                  Restricted Information
Point of Service ONE	                                                       DA-AR-99-002



                        At the initial sites for deployment, the functionality of the
                        system was hindered by hardware and software problems.
                        To address these problems the vendors developed and
                        released new versions of the software and modified
                        hardware. However, even after the release of the latest
                        versions, sites continued to incur functionality problems
                        such as inability to transmit financial data to the Standard
                        Field Accounting System.

Testing and             The Point of Service ONE program manager significantly
Certification of        shortened the time allocated for effective software testing
Software                from the original First Article Test. A tight deployment
                        schedule caused this testing to be condensed, especially at
                        pilot sites. As a result, the shortened testing time frames
                        contributed to functionality problems of the Point of Service
                        ONE system.

                        The First Article Test, performed by USPS engineering test
                        and evaluation officials, lasted six weeks and required about
                        20 personnel to test each vendor's solution. USPS
                        engineering staff provided the program office with the
                        results of the First Article Test, showing major problems.
                        For example, problems were encountered in printing money
                        orders, systems locking up, screens freezing, inventory
                        errors, and accountability at the end of the operating day.
                        Officials in the program office decided to accept the risk and
                        deploy Point of Service ONE units despite these software
                        problems.

                        As part of USPS engineering process, after the First Article
                        Test, all software maintenance testing is the responsibility of
                        the Engineering Software Management organization.
                        Currently, an independent contractor under the supervision
                        of Engineering Delivery and Customer Services Equipment
                        performs maintenance testing.

                        The program office limited the duration of all Point of
                        Service ONE software testing by allocating only:

                           •	 Fifteen working days to test the functionality of
                              a full software release at USPS Engineering, Delivery
                              and Customer Services Equipment;




                                            4
                                 Restricted Information
Point of Service ONE                                                      DA-AR-99-002



                          •	 Ten working days to test full software releases for
                             network compatibility at USPS Information Systems
                             in Raleigh, North Carolina;
                          •	 five working days to test software patches and data
                             files, both at Information Systems and Engineering;
                             and
                          •	 one to five working days to test any type of Point of
                             Service ONE software at USPS pilot sites.

                       We believe reducing the number of days allocated for
                       testing increased the risk of introducing software errors. For
                       example, one to five days of testing does not allow for pilot
                       sites to effectively test all Point of Service ONE retail
                       transactions and functions. With only five days of testing,
                       complete error checking in a live field environment may not
                       be possible.

                       Appendix A contains a chart that outlines the process the
                       program office established as the test structure for new
                       software.

                       We believe this test structure was sufficiently redundant to
                       identify software defects. However, we believe the program
                       office allocated insufficient time at key test areas.

Hardware and           While progress has been made, the hardware and software
Software Releases      releases still contain numerous problems. This condition
                       exists because software testing was condensed, insufficient
                       resources are allocated for data file development and
                       testing, and hardware was not consistently functioning. As
                       a result, there was increased customer-waiting time,
                       reduced confidence in the system by USPS employees, and
                       reduced confidence in retail operations' data integrity.

                       USPS original concept for Point of Service ONE was to use
                       a commercial "off-the-shelf” solution to reduce development
                       time and costs. During software evaluation, vendors
                       believed that 70 percent commercial "off-the-shelf" software
                       and 30 percent custom built design software was to be used
                       in developing Point of Service ONE. However, during the
                       actual development, vendors realized that more custom
                       design software was needed because of the uniqueness
                       and complexities of USPS business processes. At the
                       early-deployed sites, the functionality of the system was
                       hindered by hardware and software problems. Both



                                           5
                                Restricted Information
Point of Service ONE                                                                                                DA-AR-99-002



                       vendors have released new versions of software intended to
                       eliminate problems of the previous release. However, even
                       after the release of the latest versions, sites continued to
                       have functionality problems. (See following charts for
                       examples.)

                       As part of our review, we compared help desk calls before
                       and after the latest software releases. We computed the
                       percentage of each category of help desk calls and
                       determined that there was no significant change in the
                       category of the help desk call or the percentage of
                       occurrence. The following charts present the results of our
                       analysis for vendors A and B.


                                                                 SOFTWARE DEFECTS COMPARISON - VENDOR A
                         Percent of Total Errors for the Time




                                                                    (Periods 2/19/99 to 3/4/99 and 3/8/99 to 3/21/99)
                                                                             16
                                                                             14
                                                                             12
                                                                                                                    Previous
                                                                             10
                                        Period




                                                                              8                                     Current
                                                                              6
                                                                              4
                                                                              2
                                                                              0




                                                                          E E E ME S
                                                                                       R TE N



                                                                                      LE OR RY
                                                                                                    E




                                                                         O GL G O A T W
                                                                               N YS AT RS




                                                                          PL AC OD T E S

                                                                                      M TA RM
                                                                                   E E UN T E E
                                                                           ZE MO INV SSA I




                                                                       CL AD AL ST OR
                                                                                         M :M

                                                                               N N EN G




                                                                       EM RK D M MA NT
                                                                                     RO MA SIO




                                                                        EG / D E ...




                                                                                          N I...
                                                                              O CO E: : R
                                                                                     O E M LO
                                                                                                  .
                                                                            Z E S M DE
                                                                                    TA EM ..
                                                                                    TA Y TO
                                                                                          M .




                                                                                              ...
                                                                                   TA S ..




                                                                      D ZEN A N E
                                                                           R ST JU RR




                                                                                        AI B
                                                                                  /S T E
                                                                                 /S N /U




                                                                                             S
                                                                                 ER LE IS




                                                                                           TE
                                                                              N RA RD




                                                                                           E
                                                                         O S WO




                                                                                 /S E




                                                                                       L
                                                                      FR SF SS
                                                                           ZE T




                                                                                   L
                                                                                PA




                                                                                Y
                                                                               A
                                                                      T
                                                                   SE




                                                                          O
                                                                         O
                                                                RE




                                                                       FR
                                                                      FR




                                                                      FR




                                                                                             Categories of Errors



                       Although improvements have been made in some
                       categories for Vendor A, our review revealed category
                       increases in Standard Field Accounting System problems
                       (4.5%), Error Message (1.3%), Frozen/Stalemate: Reports
                       and Miscellaneous (1.0%), and Degraded Mode: Terminal
                       (0.9%).




                                                                               6
                                                                    Restricted Information
Point of Service ONE                                                                                                    DA-AR-99-002




                                                               SOFTWARE DEFECTS COMPARISON - VENDOR B
                                                                 (Periods 2/26/99 to 3/11/99 and 3/15/99 to 3/28/99)




                        Percent of Total Errors For The Time
                                                                         16
                                                                         14                                               Previous
                                                                         12
                                                                                                                          Current
                                                                         10




                                        Period
                                                                          8
                                                                          6
                                                                          4
                                                                          2
                                                                          0




                                                                                              N
                                                                               (N P R E
                                                                      RE M S IN DE




                                                                       LO NT Y P OU RS




                                                                                        IS N
                                                                   U OU DA E T DE )




                                                                          SF NT TA AU E

                                                                                   A MIS TE
                                                                         A E/N N U SS E




                                                                              S PE PD IT
                                                                               S NT PR S
                                                                        D ON EY MA G
                                                                             K OT PG AG




                                                                     CC F V O RY




                                                                             O DA IT IS
                                                                     BL IN IO ME NS




                                                                                             O
                                                                            LE S TY SSE




                                                                                      SM SIO
                                                                    EN P ON M TIN




                                                                                       U D
                                                                                            .


                                                                           ST /ME A ...




                                                                                          A
                                                                                  O R A




                                                                                          SI
                                                                           CK AB RO C..




                                                                                     N D
                                                                                CK H ...
                                                                                         O




                                                                                    U AN
                                                                              O R C CC
                                                                        S A P O I LI C E
                                                                                        R
                                                                      F F ER R P
                                                                    O V RO ES




                                                                                TR R
                                                                              ER O R




                                                                                     U




                                                                                     N
                                                                                 -N




                                                                   A O SI
                                                                          L S
                                                                               N




                                                                              U
                                                                  ZE




                                                                             A
                                                                           N




                                                                        CC
                                                                 O




                                                                          S
                                                               FR




                                                                      A
                                                                     N
                                                                    N
                                                                   U
                                                                                               Categories of Errors




                       The previous chart also reflected improvements in some
                       categories. The category increases for Vendor B were
                       Frozen-No Response (2.1%), End of the Day Process
                       (2.0%), Data Update (1.8%), and Standard Field Accounting
                       System Transmission problems (1.3%).

                       Further, the table below reflects the occurrences of Point of
                       Service ONE help desk tickets for both vendors during the
                       two-week periods before and after the latest software
                       releases.

                                                                         Total Occurrences of Help Desk Calls
                                                               Vendor             Previous Release              Current Release
                                                                 A                      3295                         3629
                                                                 B                      1201                         1007



                       We believe the high volume of help desk tickets was the
                       result of systemic problems with the software. This is based
                       on our review and the consultant’s risk assessment that
                       revealed recurring problems. In addition, we identified
                       vendors using script files to correct errors on an as needed
                       basis because of software problems. Program
                       management officials recognized the issue of software
                       dependability as an ongoing problem. However, the
                       program manager believed the software problems were
                       manageable and deployment could continue.



                                                                            7
                                                                 Restricted Information
Point of Service ONE	                                                                            DA-AR-99-002




Vendor Help Desk 	               Vendor help desks2 use specialized software utilities, called
Fixes 	                          scripts or script files,3 to correct Point of Service ONE out of
                                 balance conditions and other errors. An out of balance
                                 condition occurs when a discrepancy exists between
                                 receipts and disbursements. USPS Information Systems, at
                                 the program manager's request, provide a high level of
                                 network access4 to vendors, which allow them to run script
                                 files. This permits the vendor to correct Point of Service
                                 ONE accountability and other data problems with minimal
                                 documentation and oversight. Further analysis of these
                                 adjustments is needed to ensure financial integrity and the
                                 security of Point of Service ONE system are not
                                 compromised.

                                 The contract allows the vendors access to Point of Service
                                 ONE systems to perform diagnostic functions. However,
                                 contractors are not allowed to create, delete, or modify user
                                 accounts; distribute software; or remotely reconfigure Point
                                 of Service ONE devices.

                                 The scripts used to correct Point of Service ONE out of
                                 balance conditions and other problems have insufficient
                                 procedural controls, monitoring, and documentation of
                                 accounting data. Vendor help desk tickets are the only
                                 records kept of accountability data changes. Neither Point
                                 of Service ONE sites nor centralized facilities maintain
                                 detailed, independent transaction logs resulting from script
                                 file usage. Such records are essential to a sound system of
                                 internal controls, and minimize the risk of improper or
                                 fraudulent transactions being initiated through the Point of
                                 Service ONE system.

                                 Neither Information Systems nor Engineering were involved
                                 in the development and testing of scripts files. Information
                                 Systems, in fact, had not authorized Point of Service ONE
                                 vendor help desks to make any accountability changes.
                                 The only process Information Systems approved was to
                                 allow the help desks to return their Point of Service ONE

2
  Technicians who attempt to answer questions and solve problems identified by Point of Service ONE users staff
vendor help desks.
3
  Script files can directly edit database tables, which contain retail and inventory transaction data.
4
  The vendors’ access allows them to map to any of their respectively deployed Point of Service ONE terminals.
Mapping allows the help desks to directly connect to the hard disk drive of each of their Point of Service ONE
terminals via the Postal Routed Network and conduct file management. These procedures seldom leave any audit
trail of changes.



                                                        8
                                             Restricted Information
Point of Service ONE                                                      DA-AR-99-002



                       terminals to an original state. The vendors and the Point of
                       Service ONE program office interpreted this as an
                       authorization to bring Point of Service ONE terminals back
                       into balance.

                       Scripts have been used to make accountability adjustments
                       ranging from a few cents to over $300,000. Scripts have
                       also been applied in error with mistakes ranging from
                       making accountability changes at the wrong Point of Service
                       ONE site to making the Standard Field Accounting System
                       database unreadable by the database management
                       software. As a result, critical financial data could not be
                       accessed.

                       Prior to briefing the Capital Investment Committee on our
                       interim assessment of the Point of Service ONE system, we
                       met with program management officials to discuss our
                       concerns. After discussing our concerns regarding the use
                       of script files, management took action to correct this
                       problem. They directed the vendors to get approval from
                       the USPS finance and program office officials prior to using
                       script files to correct out of balance conditions and errors.

Accounting             There has been a significant increase in the financial and
Adjustments            accounting adjustments due to the deployment of Point of
                       Service ONE system. The accounting adjustments
                       increased 83 percent in volume and approximately 500
                       percent in dollar value. USPS officials indicated an increase
                       in the volume of accounting adjustments was expected
                       because of the Point of Service ONE design. However,
                       even taking this into consideration, we believe this condition
                       illustrates the numerous problems outstanding in the
                       software as well as the window clerks learning curve for
                       using Point of Service ONE. Further analysis of these
                       adjustments is needed to ensure data integrity.

                       Form 1908, Financial Adjustment Memorandum, is used by
                       USPS district finance offices to document financial errors
                       and adjustments due to imbalances of window clerks’
                       accountability. These forms are generated from the
                       Standard Field Accounting System. This process was in
                       existence before the deployment of Point of Service ONE.




                                           9
                                Restricted Information
Point of Service ONE	                                                                                                                   DA-AR-99-002



                                     We analyzed Forms 1908 for the two vendors during a
                                     three-month period prior to and after installation of the Point
                                     of Service ONE system.5 We identified large increases in
                                     volume and dollar value of Forms 1908 after Point of
                                     Service ONE was deployed, as shown in the chart below.

                                                                               Financial Adjustment Memorandum (1908s)

                                                           $16,000,000


                                                           $14,000,000


                                                           $12,000,000                                                       Before
                                       Adjustment Amount


                                                                                                                             After
                                                           $10,000,000


                                                            $8,000,000


                                                            $6,000,000


                                                            $4,000,000


                                                            $2,000,000


                                                                   $0
                                                                          69           61             761              763            768
                                                                                            Account Identifier Codes



                                     The top five financial adjustment increases were in the
                                     following account identifier codes,6 listed in order of
                                     frequency by occurrence:

                                                           •	 069: Bank Deposit Overage – records the amount
                                                              reported by a bank as a deposit overage;
                                                           •	 061: Miscellaneous Overage – not described in any
                                                              other account identifier codes;
                                                           •	 761: Miscellaneous Suspense – records the value of
                                                              suspense items that do not fit in other categories;
                                                           •	 763: Bank Deposit Shortage – records the amount
                                                              reported by a bank as a deposit shortage; and
                                                           •	 768: Reserve Stock Shortage – records the amount
                                                              of a unit reserve stock shortage detected during an
                                                              audit of the accountability.

                                     In addition, other major reasons, which may not be related
                                     to Point of Service ONE, attributing to financial adjustment

5
    Accounting periods three, four, and five of FY 1998 and 1999 were selected for this analysis.
6
    Account identifier codes are numeric three-digit codes assigned to identify various financial transactions.



                                                                               10
                                                                     Restricted Information
Point of Service ONE	                                                                               DA-AR-99-002



                                    increases were returned checks, salary advances, credit
                                    card understatement and errors, counterfeit bills, and
                                    employees stamp shortages.

                                    We conducted further analysis of Forms 1908 to determine
                                    the number of occurrences and dollar value associated with
                                    each adjustment by vendor. Our analysis revealed the
                                    following:

                                 Vendors       Adjustment           Pre-Point        Post-Point     Increase
                                                                    of Service       of Service
                                      A        # of                 12,412           24,394           97%
                                               Occurrences
                                      A        Dollar Value         $4.70            $16.53           252%
                                                                    million          million
                                      B        # of                 5,317            7,952            50%
                                               Occurrences
                                      B        Dollar Value         $1.69            $21.32          1166%
                                                                    million          million

                                    USPS management officials stated the increase in 1908's
                                    was because Point of Service ONE automatically produces
                                    a 1908 to correct an error. Previously, the preparation of a
                                    1908 could be circumvented in an integrated retail terminal
                                    environment. We agree with their assertion. However, we
                                    believe the significant increase in volume of adjustments is
                                    also an indication of the numerous problems in the Point of
                                    Service ONE system.

                                    We believe the rapid increase in number of financial errors
                                    and adjustments was causing increased work hours among
                                    the window clerks and accounting staff to correct the
                                    accounting adjustments.

Work Hours 	                        There was an increase in work hours of window clerks and
                                    accounting staff after the deployment of Point of Service
                                    ONE system.7 This situation was caused by an increase in
                                    the errors and adjustments, software and hardware
                                    problems, slow help desk response, and reconstruction of
                                    lost data. As a result, work hours of window clerks and
                                    accounting staff increased 2.0 percent and 3.8 percent,
                                    respectively.


7
    Accounting periods three, four, and five of FY 1998 and 1999 were selected for this analysis.



                                                           11
                                                 Restricted Information
Point of Service ONE                                                                             DA-AR-99-002



                       We analyzed work hours for window clerks and accounting
                       staff at Point of Service ONE, national, and non-Point of
                       Service ONE offices. This analysis was done for three
                       accounting periods prior to and after deployment. The chart
                       below illustrates the results of the analysis for window
                       clerks:


                                                WINDOW CLERKS WORK HOURS COMPARISON



                                   20.0%                       18.4%                    POINT OF
                                   18.0%                                                SERVICE ONE
                                                                                        NATIONAL
                                   16.0%
                                                                       13.4%            NON-POINT OF
                                   14.0%
                                                                                        SERVICE ONE
                        INCREASE




                                   12.0%                                       11.0%

                                   10.0%
                                                                                       8.1%
                                   8.0%     6.8%                                              6.6%
                                                   5.9% 5.6%                                         6.1%
                                   6.0%
                                   4.0%
                                   2.0%
                                   0.0%
                                              WORK HOURS            OVERTIME                  TOTAL




                       Point of Service ONE sites have a 2 percent higher rate of
                       increase in work hours than non-Point of Service ONE sites.
                       This is the difference between the Point of Service ONE
                       offices (8.1 percent) and the non-Point of Service ONE
                       offices (6.1 percent). The work hours of window clerks at
                       Point of Service ONE offices increased by more than 79,000
                       hours. The cost of this increase was $2.4 million, using the
                       FY 1999 labor rate provided by USPS Finance.




                                                     12
                                           Restricted Information
Point of Service ONE                                                                   DA-AR-99-002



                       The chart below illustrates the results of our analysis for
                       accounting staff work hours. Our analysis covers all
                       districts for accounting periods three, four, and five of FY
                       1998 and 1999.


                                                ACCOUNTNG
                                                       I STAFF WORKHOURS COMPARSON
                                                                               I




                                    30.0%
                                                                      24.9%
                                    25.0%
                         INCREASE


                                    20.0%

                                    15.0%

                                    10.0%

                                    5.0%          3.1%                         3.8%

                                    0.0%
                                              WORK HOURS                  I
                                                                     OVERTME   TOTAL




                       There was a 3.8 percent increase in work hours. The work
                       hours of the accounting staff at district finance offices
                       increased by more than 20,500 hours. The cost of this
                       increase is more than $650,000, using the FY 1999 labor
                       rate provided by USPS Finance.

                       The Point of Service ONE sites are absorbing the increase
                       in work hours out of existing budgets. If the increases
                       continue at the current rate, nationwide deployment of Point
                       of Service ONE will result in additional labor costs that was
                       not budgeted.

New Business Process   The Point of Service ONE new business processes were
                       not sufficiently mature to fully provide customer satisfaction,
                       and fully support retail operations. This condition was
                       caused by condensed time for software testing, premature
                       releases of software, software and hardware problems, and
                       information systems support problems. In addition,
                       coordination among USPS functional units, such as Retail,
                       Engineering, Information Systems, Purchasing and




                                                      13
                                            Restricted Information
Point of Service ONE                                                      DA-AR-99-002



                       Materials, and Finance was not totally effective due to a lack
                       of accountability. As a consequence, the Point of Service
                       ONE program has not fully achieved its proposed benefits
                       and results.

                       USPS designed the Point of Service ONE system to capture
                       detailed transaction data to support its sales and marketing
                       efforts and improve operations. This system was intended
                       to deliver better service, increase customer satisfaction, and
                       increase the effectiveness of sales, marketing, and
                       operations.

                       Point of Service ONE system was tested at a small number
                       of beta sites in order to gain live operational experience and
                       fully validate the hardware and software. The sites
                       experienced many problems with the system. Formal
                       deployment began in September 1998. The program office
                       recognized the need for a comprehensive risk assessment
                       and hired a consultant in October 1998. The consultant’s
                       report was issued in November 1998. The report identified
                       over 140 risk areas that could adversely affect the program.
                       Because of the upcoming Christmas holiday season and the
                       identified risks, deployment was delayed.

                       In response to the consultant’s report, the program office
                       implemented a process to address the risks. The program
                       office assigned risk areas to individuals responsible for
                       mitigating the identified problems. This mitigation process is
                       ongoing and the program office tracks progress in mitigating
                       the risks. Many new processes were put in place to correct
                       risk areas. However, many of these new processes have
                       only been in place for a few months and their effectiveness
                       remains to be determined. In addition, as problems were
                       corrected, the program office identified new risk areas.

                       In March 1999 the program office resumed Point of Service
                       ONE deployment. Although all of the risks had not been
                       mitigated, the program manager believed that the risks were
                       "manageable." However, we believe the deficiencies
                       identified in this report show that Point of Service ONE lacks
                       the maturity to support nationwide retail operations.




                                          14
                                Restricted Information
Point of Service ONE	                                                      DA-AR-99-002



Recommendations         We recommend the Vice President, Retail:

                        1. Perform an independent assessment of the duration and
                           resources needed for effective software testing and
                           allocate the necessary resources.

Management’s            Management agreed with the specific recommendation.
Comment                 Management stated “The Point of Service ONE Program
                        Office agrees with the OIG recommendation that an
                        independent assessment of testing is desirable. This
                        recommendation has been implemented. In May 1999, the
                        Point of Service ONE Program Office requested an
                        assessment by an independent contractor under the
                        direction of USPS Engineering, Delivery, and Customer
                        Services Equipment. The independent contractor worked
                        with USPS Information Systems, Point of Service ONE
                        Training, Retail Operations, the Point of Service ONE
                        Program Office, and Engineering, Delivery, and Customer
                        Services Equipment to define integrated processes for Point
                        of Service ONE software test and certification. A Point of
                        Service ONE Certification Process Document, Version 1.0,
                        was published on August 12, 1999. Specific timeframes are
                        included for each step in the testing process. These
                        processes and timeframes are implemented for Point of
                        Service ONE software test and certification and appropriate
                        resources have been allocated.”

                        2. Continue to monitor and control the use of scripts or
                           script files to perform accountability changes. Implement
                           detailed procedures governing network access
                           permissions, dollar value of accountability changes, and
                           transaction activity logging.

Management’s            Management agreed with the specific recommendation.
Comment                 Management stated “The Point of Service ONE Program
                        Office and Finance did agree that running of scripts should
                        be more formally controlled and that system access should
                        continue to be closely monitored. Immediately upon being
                        alerted to potential issues by the OIG, the Point of Service
                        ONE Program Office, with the support of Finance, took the
                        following actions:

                           •	 On April 15, after being alerted that the OIG had an
                              issue, the Point of Service ONE Program Office
                              stopped vendors from running any scripts without the


                                           15
                                 Restricted Information
Point of Service ONE                                                       DA-AR-99-002



                             written permission of the Point of Service ONE
                             Contracting Officer's Representative (COR).
                          •	 In April, the Point of Service ONE Program Office
                             requested a consultant specializing in security to
                             review vendor network access. A draft report
                             delivered in June concluded that vendor access at
                             the Point of Service ONE Help Desk was
                             appropriate and controlled, both in terms of the Point
                             of Service ONE contract and USPS Policies and
                             Procedures. The final report is expected to be
                             complete by August 31.
                          •	 In May, the Point of Service ONE Program Office and
                             Finance implemented a formal, documented process
                             for monitoring and controlling the use of scripts or
                             script files to perform accountability changes. The
                             process is controlled and managed by the Point of
                             Service ONE Contracting Officer's Representative
                             (COR) and Finance. The process produces detailed,
                             independent transaction records for all scripts.
                       •	 The Point of Service ONE Program Office scheduled
                          meetings in July and August with the vendors and USPS
                          Finance to review the accountability adjustment process
                          and software defects that cause accountability errors.”

                       3. Work with the vendors to reduce the number of
                          problems, identified through help desk tickets, in future
                          software releases.

Management’s           Management agreed with the recommendation and stated:
Comment                “Management agrees with and has already implemented the
                       OIG recommendation to continue to work with the Point of
                       Service ONE vendors to reduce problems identified through
                       help desk tickets. This work began with the initial
                       deployment of Point of Service ONE and the Point of
                       Service ONE Program Office continues to refine and
                       improve these efforts with the Point of Service ONE
                       vendors. Since the period audited by the OIG, there has
                       been a significant drop in help desk tickets for both vendors,
                       even though deployment of new sites has continued. The
                       number of tickets has dropped in all areas, indicating that
                       there are no systemic problems with the software.”



                       4. Monitor the trend of work hour utilization at the units and


                                          16
                                Restricted Information
Point of Service ONE                                                      DA-AR-99-002



                          the district finance offices and determine the cause for
                          any unexpected increases.

Management’s           Management agreed with the specific recommendation and
Comment                stated: “Management concurs that increases in work hours
                       should be identified and investigated regardless of the
                       cause. There are numerous reasons for the work hour
                       increases including Districts that have expanded window
                       hours to accommodate customer requirements and
                       accounting staff hours influenced by SFAS consolidations in
                       many Districts.

                       Point of Service ONE did have an impact on work hours
                       particularly in sites that we deployed in the Fall of 1998.
                       These hours can be attributed to start up issues and
                       software and data updates.” Management noted there has
                       been a significant improvement in work hours since the
                       audited accounting periods. Management further stated the
                       improvements in work hour trends are primarily due to field
                       operations management attention to work hour usage and
                       to some degree improvements in Point of Service ONE.

                       5. Coordinate Point of Service ONE activities with the Vice
                          Presidents of Engineering, Purchasing and Materials,
                          Information Systems, and Finance to ensure affected
                          USPS departments are held accountable for
                          accomplishing their assigned responsibilities.

Management’s           Management agreed with the specific recommendation and
Comment                stated: “Retail has always recognized the need for the
                       subject Vice Presidents to be directly involved in the
                       development and implementation of Point of Service ONE.
                       These four Vice Presidents serve on a Point of Service ONE
                       steering committee, along with the Vice President of Field
                       Retail Operations, chaired by the Vice President of Retail.
                       The committee was involved with the selection of the Point
                       of Service ONE vendors and has met periodically over the
                       last three years to monitor the progress of Point of Service
                       ONE. The Vice Presidents are actively involved with Point
                       of Service ONE and have assigned employees full-time to
                       support the program.”

                       Management also noted “Numerous improvements have
                       been achieved to date in 1999 in Point of Service ONE
                       including significant reductions in accountability issues,


                                          17
                                Restricted Information
Point of Service ONE                                                     DA-AR-99-002



                       reduced call volumes at the Help Desk, and achievement of
                       production level software with both Point of Service ONE
                       vendors in April 1999.”

                       Finally, management stated “Retail considers the other
                       functional groups an integral part of the implementation of
                       Point of Service ONE. The functional groups have provided
                       excellent support and continue to respond to their
                       responsibilities. In addition, the Vice Presidents, Area
                       Operations have confirmed that Point of Service ONE has
                       achieved the level of maturity to support full deployment and
                       nationwide retail operations. The OIG recommendation is
                       fully implemented.”

                       We recommend the Vice President, Finance and Controller:

                       6. Monitor the volume of Forms 1908 generated by the
                          Standard Field Accounting System and determine the
                          cause of the adjustments.

Management’s           Management agreed with the finding and recommendation.
Comment                However, management said the increase in the number of
                       1908s was expected due to the added control built into the
                       design of the system. Management felt the scope of the
                       audit should have included an analysis of closed 1908s.

                       Additionally, they noted that no analysis was done to
                       determine the offices' condition prior to Point of Service
                       conversion or to determine if there was a general increase
                       in 1908s across non-Point of Service units.

                       With regard to the recommendation, management stated
                       “Management agrees with the recommendation to monitor
                       the volume and cause of 1908s that are generated,
                       however, since 1908 data is not readily available, the open
                       control report will be utilized. The Standard Field
                       Accounting Unit Revenue Data Access is one tool the area
                       Finance group is using to monitor open items in trust and
                       suspense. We strongly believe that this is the best method
                       to monitor the adjustments. Standard Field Accounting Unit
                       Revenue Data Access provides the capability to analyze
                       open control items down to the unit level, by account
                       identifier code and cause of the adjustment. Discussions
                       with the area Finance coordinators have resulted in most
                       areas monitoring the open control report from Standard



                                          18
                                Restricted Information
Point of Service ONE                                                       DA-AR-99-002



                        Field Accounting Unit Revenue Data Access every
                        accounting period. In Postal Quarter 1, FY 2000,
                        Headquarters Finance will issue formal instructions to the
                        areas for monitoring the dollar amounts entered into trust
                        and suspense, as well as the clearance and aging of those
                        items. In summary, the Finance group has actively
                        monitored and attempted to resolve all 1908 issues and
                        provided proper accounting controls.”

Overall Evaluation of   Management's actions meet the intent of the
Management’s            recommendations.
Comment
                        As noted in the Objectives, Scope, and Methodology
                        paragraph, this is the first in a series of reports we plan to
                        issue on the Point of Service ONE system. Our second
                        report will address among other things, more specific issues
                        related to the 1908s.




                                           19
                                 Restricted Information
Point of Service ONE                                                            DA-AR-99-002



                       Test Structure Process for New Software




Vendor Testing

Vendors conduct Developer System Integrated Testing (DIT) and System Integrated
Testing (SIT) at their facilities to stress the software under simulated field conditions in
their test domain. USPS personnel conduct Preliminary System Assessment (PSA)
testing using unscripted test procedures to simulate actual retail transactions.


                  Test Structure Process for New Software (Continued)


                                               20                                  Appendix A
                                     Restricted Information
Point of Service ONE                                                           DA-AR-99-002




USPS Information Systems Testing

Testing at Information Systems focuses on Point of Service ONE software’s ability to
interface with existing USPS networks, Postal Routed Network and AOI, and
information management programs such as the Standard Field Accounting System.

Functional Testing at USPS Engineering

Testing at Engineering focuses on the functionality of Point of Service ONE and its
ability to execute all transactions required in the statement of work.

Pilot Site Testing and Deployment

Once testing at Information Systems and Engineering is complete, the program office
decides if the software is ready to be released to Point of Service ONE pilot sites.
Testing there verifies that the software will function in a live retail environment.

Distribution Certification

Information Systems distributes and loads Point of Service ONE software electronically
to each individual terminal in the field. During testing, software is electronically
distributed and loaded to Point of Service ONE terminals at Engineering. These
electronically distributed software versions are then tested for completeness and proper
functionality.

Central Management Facility

This organization, part of Information Systems, has responsibility to electronically
distribute and load all Point of Service ONE software in the field.

Rate Case Release Path

The normal software release path involves pilot site testing. When software changes
are due to a rate case change, pilot site testing is bypassed to insure that all Point of
Service ONE sites are conducting retail transactions in accordance with the rate
change.




                                              21                                  Appendix A
                                    Restricted Information
Point of Service ONE                            DA-AR-99-002




                                22                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                23                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                24                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                25                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                26                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                27                Appendix B
                       Restricted Information
Point of Service ONE                            DA-AR-99-002




                                28                Appendix B
                       Restricted Information
Point of Service ONE                                 DA-AR-99-002




Major Contributors to
This Report




                        .




                                      29
                            Restricted Information
